No.

IN THE
SUPREME COURT OF THE UNITED STATES

DANIEL J. HEFFLEY - PRO SE PETITIONER
vs.
Commonwealth of Penna. et. al. - RESPONDENTS
PROOF OF SERVICE
I, Daniel J. Heffley, do swear or declare that on this date, March 14, 2021, as required by
Supreme Court Rule 29 I have and PETITION FOR A WRIT OF CERTIORARI on each party to the
above proceeding or that party's counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Megan L. Davis, Esq.
Supreme Court of Pennsylvania Courts
Administrative Office of PA Courts
1515 Market Street, Ste. 1414
Philadelphia, PA 19102

Geri R. St. Joseph, Esq.
Supreme Court of Pennsylvania Courts
Administrative Office of PA Courts
1515 Market Street, Ste. 1414
Philadelphia, PA 19102

I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 6, 2021

Daniel J. Heffley

Page 23 of 23

